<html>
<title> - OPPORTUNITIES FOR FEDERAL AND NON-FEDERAL PARTNERSHIPS IN INTEGRATED WATER MANAGEMENT AND EFFORTS TO IMPROVE WATER SECURITY IN HAWAII</title>
<body><pre>[Senate Hearing 114-478]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-478
 
 OPPORTUNITIES FOR FEDERAL AND NON-FEDERAL PARTNERSHIPS IN INTEGRATED 
    WATER MANAGEMENT AND EFFORTS TO IMPROVE WATER SECURITY IN HAWAII

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 18, 2016

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                               

                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               
               
               
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-849                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                   




               

         Available via the World Wide Web: http://www.fdsys.gov
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR, Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
  Lucy Murfitt, Senior Counsel and Public Lands and Natural Resources 
                                Director
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
     Melanie Stansbury, Democratic Senior Professional Staff Member
     
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hirono, Hon. Mazie K., a U.S. Senator from Hawaii................     1

                                WITNESS

Ige, Hon. David, Governor, State of Hawaii.......................     4
Gabbard, Hon. Mike, State Senate, State of Hawaii................     9
Yamane, Hon. Ryan, State House of Representatives, State of 
  Hawaii.........................................................    13
Anthony, Stephen, Director, Pacific Islands Water Science Center, 
  U.S. Geological Survey.........................................    17
Moore, Randy, Regional Forester, Pacific Southwest Region, Forest 
  Service, U.S. Department of Agriculture........................    22
Smith, David, Administrator, Division of Forestry and Wildlife, 
  Department of Land and Natural Resources, State of Hawaii......    34
Gonser, Matthew, Extension Agent, Community Planning and Design, 
  University of Hawaii Sea Grant College Program.................    47
Menard, Trae, Chair, Hawaii Association of Watershed 
  Partnerships, and The Nature Conservancy.......................    54
Gon, Dr. Sam, Senior Scientist and Cultural Advisor, The Nature 
  Conservancy of Hawaii..........................................    58

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Anthony, Stephen:
    Statement for the Record.....................................    17
    Written Statement............................................    19
Gabbard, Hon. Mike:
    Statement for the Record.....................................     9
    Written Statement............................................    11
Gon, Dr. Sam:
    Statement for the Record.....................................    58
    Written Statement............................................    60
Gonser, Matthew:
    Statement for the Record.....................................    47
    Written Statement............................................    49
Hirono, Hon. Mazie K.:
    Opening Statement............................................     1
Ige, Hon. David:
    Statement for the Record.....................................     4
    Written Statement............................................     6
Menard, Trae:
    Statement for the Record.....................................    54
    Written Statement............................................    56
Moore, Randy:
    Statement for the Record.....................................    22
    Written Statement............................................    24
Smith, David:
    Statement for the Record.....................................    34
    Written Statement............................................    36
Yamane, Hon. Ryan:
    Statement for the Record.....................................    13
    Written Statement............................................    15


 OPPORTUNITIES FOR FEDERAL AND NON-FEDERAL PARTNERSHIPS IN INTEGRATED 
    WATER MANAGEMENT AND EFFORTS TO IMPROVE WATER SECURITY IN HAWAII

                              ----------                              


                       TUESDAY, OCTOBER 18, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m. HST at 
the Hawaii State Capitol, Honolulu, Hawaii, Hon. Mazie K. 
Hirono, presiding.

 OPENING STATEMENT OF HON. MAZIE K. HIRONO, U.S. SENATOR FROM 
                             HAWAII

    Senator Hirono [presiding]: Good morning, everyone.
    It is nice to see so many of you. Aloha.
    [Group respond: Aloha.]
    Senator Hirono. Good. We have to start with that, you know, 
to get the mood going.
    Welcome to this important field hearing of the Senate 
Energy and Natural Resources Committee.
    I would like to start by thanking the Committee Chair, 
Senator Lisa Murkowski, and Ranking Member, Senator Maria 
Cantwell, for recognizing the importance of this issue for 
Hawaii and scheduling this field hearing.
    I would like to also thank their staff who have worked with 
my staff to prepare for this field hearing, and I welcome the 
two Committee staff who traveled here from Washington, DC, hard 
job, to join us. [Laughter.]
    Could you raise your hands, our two staff members from the 
Committee?
    Today we have an opportunity to explore how organizations 
and Federal, State, and local governments can work together to 
protect Hawaii's native forested watersheds. A watershed is 
quite simply an area of land, such as a mountain or valley, 
which collects rainwater into a common outlet. In Hawaii the 
most common outlet is the ocean, but some of our rainwater is 
absorbed by plants, some percolates into underground aquifers 
and some flows into surface rivers and streams. Native forests 
are a critical component of how a watershed can collect 
rainwater.
    Fog condensing on trees up high in the mountain regions can 
increase the collection and absorption in our watersheds by up 
to 30 percent annually. This is particularly important in 
Hawaii where we depend on ground water for 94 percent of our 
public water supply, the highest rate in the country. We need 
water to survive and in Hawaii the health of our watersheds is 
deeply connected to our way of life.
    Although there are 72 watersheds on Oahu, the Ko'olau 
Mountain Range provides nearly half of our drinking water and 
generates up to $14 billion to our economy every year.
    The stakes are clear. We need a holistic approach to water 
security and to protect our forested watersheds. Forested 
watersheds supply hundreds of billions of gallons of fresh 
water every year. Without healthy forests most rainfall would 
simply run off into the ocean.
    As Hawaii's population has grown over the past century, our 
aquifers have shrunk at an alarming rate. The Pearl Harbor 
aquifer, which supplies over 60 percent of Oahu's municipal 
drinking water, has shrunk by 50 percent compared to levels 
monitored in 1910. A number of issues have contributed to where 
we are today. Hawaii has been seeing decreased rainfall over 
the past 30 years.
    The proliferation of invasive flora and fauna also poses a 
growing danger to our forested watersheds. Feral ungulates, 
such as pigs and goats, increase deforestation, spread invasive 
plant species, and decrease native flora. Invasive plants also 
decrease ground water recharge and increase the risk and 
severity of wildfire.
    In East Hawaii strawberry guava forests reduce ground water 
recharge by 85 million gallons per day, enough to fill 128 
Olympic-sized swimming pools every single day. Native Hawaiian 
forests, by comparison, are 30 to 50 percent more efficient at 
recharging aquifers than strawberry guava forests. Meanwhile, 
an expanding population combined with Hawaii's tourism 
industry, places increased stress on Hawaii's ground water 
reserves.
    Climate change will accelerate these issues and create new 
ones. As temperatures continue to rise we face the prospect of 
salt water intrusion into ground water as well as increased 
evaporation and drought. Fortunately, Hawaii has also proven to 
be an incubator for innovative strategies to protect our 
forested watersheds.
    The East Maui Watershed Partnership, established in 1991, 
connects private landowners with Federal and state resources 
for conservation. Over the past two decades we have exported 
the East Maui model to encompass ten partnerships across the 
state.
    The Hawaii Community Foundation is also doing excellent 
work to promote water security in Hawaii. Recently, in 2013, 
they organized the Hawaii Fresh Water Initiative which brought 
together a range of stakeholders to identify a goal of 
generating an additional 100 million gallons of fresh water per 
day by 2030. In 2015 they published a blueprint for action that 
lays out a number of steps we can take over the coming years to 
help achieve this goal. I am certainly looking forward to 
working with them to accomplish our shared goals.
    Another recent example of what can happen through 
conservation partnerships is Hawaii's Island Forests at Risk 
Collaborative Landscape Proposal. I worked hard with the 
National Park Service, the Fish and Wildlife Service, the 
Forest Service and the Interior Department to ensure that this 
proposal was included in the President's budget. This proposal, 
which has received Federal funding in the President's budget 
now for two years from the Land and Water Conservation Fund, 
includes 13 Federal, state and local partners and seeks to 
expand protected habitat here in Hawaii.
    The Land and Water Conservation Fund is a very important 
fund, and it is authorized by the Committee that is holding 
this hearing. Earlier this year we successfully passed 
permanent funding authorization for the Land and Conservation 
Fund, both through this Committee and in the Senate bipartisan 
energy bill. I will continue to work closely with my Senate 
colleagues to ensure that permanent authorization becomes law. 
This Land and Water Conservation Fund, as a lot of you know, is 
a very popular fund, but it is not permanent. It is huge 
progress for us to make this a permanent fund.
    Protecting Hawaii's water at the source is critical to 
safeguarding Hawaii's water security. I am interested in 
hearing from all of our witnesses today about the many programs 
underway at the Federal, state and local levels to protect 
Hawaii's forested watershed. I hope our discussion will provide 
some new and creative ideas about how the Federal Government 
can partner and support these initiatives, and I am committed 
to continuing my work on this Committee to support those 
initiatives.
    We have some very knowledgeable witnesses and leaders 
joining us this morning. It is organized into three panels, 
comprised in the first panel of the Governor and members of our 
state legislature. The second panel comprises Federal and state 
agency officials, and the third panel is comprised of local 
stakeholders.
    Governor Ige, you have made watershed protection a priority 
for the state, as was made clear with your announcement at the 
IUCN World Conservation Congress held in Hawaii recently, to 
protect 30 percent of Hawaii's priority watersheds by 2030. I 
know that you cannot stay for the full hearing, but I do 
appreciate you changing your schedule to join us today to share 
your views.
    I also want to welcome Senator Mike Gabbard, Chair of the 
Senate Committee on Water, Land and Agriculture. Senator, I 
know you have recently had some bills come through your 
committee that are relevant to today's hearing, including one 
that sets ambitious standards for water reuse and reclamation 
and another that establishes the Water Security Advisory Group 
that will support water innovation.
    I also want to welcome Representative Yamane, Chair of the 
State House Water and Land Committee. Your committee has also 
been very hard at work on various water bills during this past 
legislature, and you note in your testimony that the number and 
diversity of water bills that recently passed are really at the 
forefront of what we need to do to address our water security 
needs.
    So I commend all of you for your leadership.
    Here is how this works. You see the light in front of you? 
Okay. You will each have five minutes for your opening 
statement, and the lights will signal how much time you have 
remaining. When you see the yellow light that means you have 
two minutes to go, and of course, when the red light goes on, 
that is it. [Laughter.]
    Of course, your full written statements will be included in 
the Committee record.
    We will start with you, Governor Ige. Thank you so much for 
joining us.

     STATEMENT OF HON. DAVID IGE, GOVERNOR, STATE OF HAWAII

    Governor Ige. Well, thank you, Senator Hirono.
    I just wanted to start off of my prepared remarks and thank 
you for bringing the Committee here and giving all of us, here 
in Hawaii, an opportunity to really talk about this most 
important subject.
    And you were quite accurate that Senator Gabbard and 
Representative Yamane had a tremendous session this past 
session, really focused on water, water security and the 
general issue of ensuring that we will have clean, fresh water 
for our citizens forever. And so, I just wanted to start by 
commending them. You definitely have included two of the best 
people, the most inspiring advocates for water.
    As an island state, Hawaii is completely dependent on 
internal sources for our supply of fresh, clean water. There 
are no nearby states from which we can draw to meet our fresh 
water needs for drinking and agriculture.
    Our rainforests play a critical role in the capture and 
storage of water. Our forests, particularly the Hawaiian Koa-
Ohia rainforests, capture moisture from the trade winds and 
allow it to soak slowly through the layers of trees and ferns 
and mosses, into our streams and aquifers. When the forests are 
healthy, our water source is secure and clean. When damaged by 
invasive species or fire or disease or loss of species, the 
forest loses its integrity and water-capturing capability. 
That's why a major component of my administration's Sustainable 
Hawaii Initiative focuses on watershed protection.
    During the World Conservation Congress held in Honolulu 
last month, I made an ambitious commitment to the global 
community to protect 30 percent of Hawaii's priority watershed 
forests by 2030. Currently, about 15 percent of these priority 
watershed forests are protected.
    We can only reach this goal, and go beyond it, through 
public/private partnerships of landowners and managers who 
recognize that the best way to protect our forested watersheds 
and the source of our fresh water is through collaborative 
management across landscapes. Watershed partnerships are 
voluntary public/private alliances that allow us to steward 
native forested watersheds without regard to boundaries. Hawaii 
has ten active watershed partnerships covering 2.2 million 
acres, roughly half the land of the entire state. They are 
helping to plan, identify funding and carry out the dedicated, 
hard, on-the-ground work that is necessary to combat threats to 
our forests.
    In addition to working with the watershed partnerships, 
Hawaii has adopted specific policies to protect our water at 
its source. This year the legislature passed, and I signed, Act 
172, establishing a two-year pilot program for a water security 
advisory group to establish public-private partnerships that 
increase water security, including increasing ground water 
recharge.
    Federal funding for on-the-ground forest protection by or 
through the Fish and Wildlife Service, Forest Service, Natural 
Resources Conservation Service and the National Park Service, 
along with research conducted by the United States Geological 
Survey, is absolutely critical to these efforts. We sincerely 
appreciate the support of the Federal agencies that allow us to 
stay on track to fund and accomplish watershed protection.
    Effective forest management means we have the basic 
infrastructure and stewardship in place to control the core 
threats to Hawaii forests. Currently, our greatest threat is a 
fungal disease called Rapid Ohia Death on Hawaii Island.
    The Ohia is the most abundant native tree in the state of 
Hawaii. It is the core structure of our native forested 
watersheds. The Ohia provides habitat for many native species 
and the spiritual and cultural importance of this tree in and 
to the Hawaiian culture is beyond compare. This fungal disease 
is currently killing thousands of Ohia trees on Hawaii Island, 
so far engulfing over 50,000 acres. We have established a Rapid 
Ohia Death Working Group, made up of numerous public and 
private partners, including our Federal partners. This group's 
work is key to advancing research into the cause and extent of 
the disease and a pilot field project to seek ways to contain 
the spread of the disease.
    This is not the only threat to our forests, which are 
comprised of native and endangered species. Hawaii is home to 
one-third of the endangered species listed in the nation. 
Forty-nine new species were added to Hawaii's list of 
endangered species this year alone, some of which may have been 
avoided if adequate funding had been available in the past.
    Increased Fish and Wildlife Service endangered species 
funds, in addition to the proposed ``Recovering America's 
Wildlife Act,'' can provide urgently needed support for our 
endangered plants and wildlife and their habitats.
    In addition, reauthorization of the Land and Water 
Conservation Fund will be critical to protecting high priority 
lands, including watershed lands, from changes in use that 
would destroy their natural function.
    I thank the Committee on Energy and Natural Resources for 
this opportunity to focus on the threats to and potential 
support of our native forested watersheds, the source of life 
here in the Hawaiian Islands.
    Thank you.
    [The prepared statement of Governor Ige follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Hirono. Thank you very much, Governor.
    If your schedule means that you need to leave us, I know 
our Senator and Representative and our guests will understand.
    Thank you very much.
    Senator Gabbard.

 STATEMENT OF HON. MIKE GABBARD, STATE SENATE, STATE OF HAWAII

    Mr. Gabbard. Aloha, Senator Hirono, and mahalo nui for the 
opportunity to provide testimony at this field hearing 
regarding opportunities for Federal and non-Federal 
partnerships in integrated water management and efforts to 
improve water security in Hawaii. I commend the U.S. Senate 
Committee on Energy and Natural Resources for seeking this 
input and for looking for ways to collaborate to help our state 
improve its stewardship of this precious natural resource. As 
the Chair of the State Senate's Water, Land and Agriculture 
Committee, I can assure you that this topic will continue to be 
a top priority in my policymaking efforts.
    And as you mentioned in your remarks, Senator, our state 
had an incredible privilege last month to host the World 
Conservation Congress for the first time in our nation's 
history. At that event, which included over 10,000 delegates 
from 192 countries from around the world, it proved to be a 
perfect opportunity to showcase our leadership in 
sustainability through our Aloha and Challenge targets and to 
forge partnerships for future efforts.
    During his opening address at the Congress, Governor Ige 
announced our state's commitment to protecting 30 percent of 
our watersheds by 2030. And as you mentioned, the Hawaii Fresh 
Water Initiative has become a cornerstone of our state's 
efforts to improve integrated water management and water 
security in the state. Through this collaborative effort, led 
by the Hawaii Community Foundation, three aggressive water 
strategy areas have been identified: conservation, recharge and 
reuse. The principal goal of the initiative is to create 100 
million gallons per day in additional reliable fresh water 
capacity for our islands by 2030, including recharging our 
aquifers through rainwater capture with a goal of 30 million 
gallons a day. Achieving these ambitious goals is directly tied 
to the successful stewardship of our watershed areas.
    On June 30th I participated in a bill signing ceremony for 
seven water supply-related bills. This is the most water-
related bills in memory and the direct result of a close 
partnership between the Water and Land Committee in the House 
and our Committee in the Senate. I assure you that this issue 
will remain at the forefront in coming sessions.
    A few of the highlights include:
    Act 169, of Senate Bill 2645 provides funding for and 
requires the adoption of a five-year statewide water loss audit 
program to encourage our water utilities to track leaks and 
prevent water waste.
    Act 170, which was House Bill 1749, amends the Hawaii State 
Water Plan to include the utilization of reclaimed water at all 
state and county facilities for all uses other than potable/
drinking water needs. The new law sets an ambitious goal for 
the water sector just as Hawaii has adopted a nation leading 
standard around 100 percent renewable energy.
    Act 172, House Bill 2040, establishes a two-year Natural 
Capital Investment Partnership under the State Department of 
Land and Natural Resources to spur water innovation and public/
private partnerships in the water sector.
    So as we look to our future priorities, it's important that 
the State and Federal Governments provide sufficient financial 
resources to enable our Watershed Partnerships and the state 
DLNR to protect more of our watershed forests. We should also 
continue to encourage the EPA and the State Department of 
Health to work together to find good uses for the funding 
available through the Drinking Water State Revolving Fund.
    Going beyond state and county buildings, we need to update 
our plumbing and building codes to include the latest 
efficiency and reuse potential and conserve our water 
resources. The State Legislature will also revisit legislation 
to create a program that offers incentives to local residents 
who invest in water conservation systems.
    This field hearing is a welcome addition to the dialog 
about how Hawaii can begin to lead in creating holistic, 
integrated solutions to our water challenges. With the impacts 
of climate change already altering our reality in the Islands, 
the Legislature will continue to take water seriously and to 
the best of our ability, push aggressively to ensure that every 
drop of water that hits our islands is efficiently captured, 
distributed and reused where possible.
    I am grateful that the Federal Government continues to be a 
key partner in this effort.
    Mahalo, once again, for taking the time and effort to 
receive this input.
    [The prepared statement of Mr. Gabbard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you, Senator Gabbard.
    Representative Yamane.

STATEMENT OF HON. RYAN YAMANE, STATE HOUSE OF REPRESENTATIVES, 
                        STATE OF HAWAII

    Mr. Yamane. Senator, nice to see you again and thank you 
for bringing this Committee to Hawaii and welcome home.
    Senator Hirono. Thank you.
    Mr. Yamane. Before I begin I would like to highlight that 
this legislative session, in collaboration with the Senate, 
took water very seriously. We came up with about 27 bills, and 
out of that 27 bills we passed 14 into law.
    As part of the idea beyond the water essence, we looked at 
water as being the lifeblood of our island. And together with 
the Senator, we looked at the whole process, looking at water 
from the mountains to the sea. So we came up with a wide 
variety of bills, many of them noted by the previous speakers, 
which included looking at not only protecting our watershed but 
also looking at how our water is used on a daily basis.
    And I wanted to highlight, Senator, that I was able to go 
to Texas and California, seeing the extremes. In one area 
helping with disasters due to flooding and in another area 
helping in California due to drought with wildfires.
    So coming home, working with the Senator, we took water and 
water access and having clean, fresh water for our use as not 
only an economic issue, but a cultural and spiritual issue that 
we needed to address.
    So as we move forward knowing that with the concerns with 
the increase in climate change, with the reduction of rainfall 
by 19 percent over the last 20 years, we needed to do something 
now to be ahead of the game and potentially help continue that 
discussion on water reuse, water capture and water 
sustainability.
    So some of the bills previously highlighted were the issues 
of doing water audits, looking at water infrastructure loans, 
so that way we can build and support infrastructure that looks 
at water irrigation with the concept of using water wisely and 
actually, prevention and reduction in evaporation so water can 
reach its goal.
    Also we looked at water, not only as recharging our 
aquifers but also how we use it. And we did do something, I 
think, that's led the nation in which we passed the first law 
that bans the discharge of sewage into the oceans within ten 
years.
    Senator, one of the things we wanted to do was make sure 
that we supported our dams and reservoirs as well as the staff 
and workers at the Department of Land and Natural Resources. So 
we also invested $16 million to upgrade and protect our dams 
and reservoirs so they can be used for local farmers and food 
production.
    Senator, you know, one of the things I would like to 
highlight is we have a very good relationship with the Federal 
Government in so many ways and we would like that to continue. 
We would like to continue the opportunity to work with the 
Federal Government in investing in water reclamation, water 
reuse, water metering, storm water recapture and ground water 
recharging projects.
    We also would like to highlight that the Federal water 
conservation grant, like Water Smart funding, is important to 
Hawaii and if it can continue and expand it would be greatly 
appreciated.
    I wanted to throw out that we have been working with the 
Bureau of Reclamation, Army Corps of Engineers, EPA and USDA, 
National Fish and Wildlife and FEMA and other Federal 
Government entities and their ability to work in partnership 
with us is greatly appreciated.
    So, thank you.
    [The prepared statement of Mr. Yamane follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Hirono. Thank you very much.
    It is clear that your leadership is bearing results and I 
commend all of you and especially the legislature, the two of 
you, for leading your two very important committees and 
focusing on reuse, recharge, infrastructure, all really 
important, as our water infrastructure all across the country 
is in a bad state of repair. You are putting in the 
appropriations which the Governor has to sign into law.
    Thank you very much for your partnering, and I look forward 
to working with all of you to identify Federal resources. It 
would be great if we could bring more Federal resources, 
especially in the area of our fight against invasive species, 
because I recognize that we do not get as much of the pie that 
we probably should be getting. So we will work together to make 
that happen.
    Mahalo nui, to you all.
    Mr. Gabbard. Thank you.
    Mr. Yamane. Thank you.
    Senator Hirono. Thank you.
    So we will bring up the second panel.
    You are going to be testifying in the order that I will be 
identifying you. We have Steve Anthony, who is the Director of 
the Pacific Islands Water Science Center, U.S. Geological 
Survey (USGS). Randy Moore is a Regional Forester with the 
Pacific Southwest Region, Forest Service, U.S. Department of 
Agriculture. David Smith is the Administrator at the Division 
of Forestry and Wildlife with the Hawaii Department of Land and 
Natural Resources.
    The USGS is part of the Department of the Interior, and it 
is doing important research in Hawaii and across the Pacific 
Islands. The Regional Forester, Randy Moore, your division, or 
your service, is housed within the U.S. Department of 
Agriculture. So we have Department of the Interior, Department 
of Agriculture, and then David Smith is with the State 
Department of Land and Natural Resources (DLNR).
    I did have the opportunity last week to meet with DLNR 
Chair, Suzanne Case, and David to learn more about the 
Department's responsibility to protect our watersheds.
    Welcome to all of you. Let's get started, and we are going 
to start with you, Steve.

 STATEMENT OF STEPHEN ANTHONY, DIRECTOR, PACIFIC ISLANDS WATER 
             SCIENCE CENTER, U.S. GEOLOGICAL SURVEY

    Mr. Anthony. Senator Hirono, thank you for inviting me to 
discuss the U.S. Department of the Interior's (DOI) role in 
integrated water resource management and efforts to improve 
water security in Hawaii.
    In Hawaii, water resources help shape our culture, economy 
and environment. As climate variability and change continues to 
stress limited water resources, water security will continue to 
grow as a national concern. As a result, integrated water-
resource management will be critical to support healthy, 
thriving environments and societies.
    The Department, through the U.S. Geological Survey, 
National Park Service, Pacific Islands Climate Science Center 
and the Pacific Islands Climate Change Cooperative, is working 
to bring people together to ensure a sustainable and secure 
water future. Through this process, the Department partners 
with cultural stewards to help scientists understand culturally 
sensitive water resources. The Department also works with 
academic researchers to forecast climate change as potential 
impacts on water and with watershed managers and state and 
local agencies to understand how management activities can 
impact water resources.
    As part of this effort, the USGS provides objective science 
for the nation's water resources to support human well-being, 
healthy ecosystems, economic prosperity, and to anticipate and 
help resolve impending water-resource conflicts and 
emergencies.
    The USGS also serves society through water-resource 
monitoring and research to provide tools that managers and 
policymakers can use for preserving the quality and quantity of 
water resources. In Hawaii, the USGS is working in cooperation 
with the Hawaii Commission on Water Resource Management and 
other state and local agencies to expand and enhance monitoring 
of rainfall, ground water, stream flow and water quality, 
assess ground water recharge and availability, estimate low-
flow conditions in our streams needed to establish instream 
flow standards, quantify the impacts of high-priority non-
native and dominant native plant species on freshwater 
availability and to assess water quality related to land-use 
activities.
    USGS is also developing information tools to evaluate 
ground water availability on several of the main islands as 
part of the regional study of the nation's principle aquifers.
    With respect to water use, USGS compiles and estimates 
water use information every five years in cooperation with 
State, Federal and local agencies.
    The USGS is providing a funding opportunity to the state to 
enhance the understandings of surface water use in Hawaii.
    Finally, the USGS is assessing the effects of droughts and 
other climate variability on water resources.
    As mentioned previously, the Hawaii Fresh Water Initiative 
was launched in 2013 to bring multiple, diverse parties 
together to develop a forward-thinking and consensus-based 
strategy to increase water security in Hawaii. Organized by the 
independent nonprofit Hawaii Community Foundation, the 
Initiative relied on a blue ribbon advisory panel of experts 
including farmers, landowners, scientists, conservationists and 
government officials.
    DOI will continue to partner with the public and private 
sectors in Hawaii to support the understanding of watershed-
management activities that affect water security and to develop 
cost-shared activities for understanding how best to ensure a 
water-secure future. Given its mission, the USGS is ideally 
positioned to use and develop the best science and technology-
based tools to evaluate water supply solutions and continue 
helping water managers to establish adaptive-management 
strategies that address water sustainability and to partner 
with cultural stewards to understand the importance of long-
term water security needs.
    This concludes my statement, and I would be happy to answer 
any questions you have at the end of the panel.
    [The prepared statement of Mr. Anthony follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you.
    Mr. Moore.

STATEMENT OF RANDY MOORE, REGIONAL FORESTER, PACIFIC SOUTHWEST 
     REGION, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Moore. Senator Hirono, thank you and the Committee for 
holding this important hearing and inviting me to testify on 
behalf of the USDA and the Forest Service regarding our 
partnership efforts to maintain and improve watershed 
conditions and the security of our water supply in Hawaii and 
across the United States.
    My name is Randy Moore, and I am the Regional Forester for 
the Pacific Southwest Region of the U.S. Forest Service.
    The history of the Forest Service and the National Forest 
actually began with the specific mandate to protect forested 
lands and to secure favorable conditions for water flow. Today, 
we are furthering that tradition with employees working across 
research and development, state and private forestry and a 
National Forest System in support of a healthy forest and 
grasslands across ownership boundaries and jurisdictions.
    We recognize that our world is increasingly complex and 
constantly changing. We could not be successful today without 
the efforts of our many partners at the State, Federal and 
local levels working side-by-side with us. Our work is vital to 
securing clean, abundant supplies for water for human use, for 
recreation, for agriculture purposes and to support fish and 
wildlife populations and energy production. This is especially 
true in the context of a changing climate.
    My submitted testimony highlights several examples of our 
efforts in Hawaii and across the Western Pacific Islands. I 
would like to use this opportunity to describe just a few of 
the successful, national efforts on the way that are pieces of 
the whole effort of the Forest Service in securing our nation's 
water future.
    Collaborative efforts such as our partnership with Coca-
Cola are making a big difference on the ground. Since 2013 we 
have worked on 13 projects in six national forests across the 
country that have engaged hundreds of volunteers contributing 
nearly 5,000 hours while increasing the water capacity of 
thousands of acres of land. Coca-Cola, National Fish and 
Wildlife Foundation, and others have invested more than $2.1 
million to date which has been matched by partners, including 
the National Forest Foundation, for a total investment of $4.5 
million.
    Restoration work accomplished through this partnership 
return more than a billion liters of water to the National 
Forest System which is the source of drinking water for more 
than 60 million Americans.
    Working with the National Forest Foundation projects such 
as the Hayman post fire restoration work in Colorado brought 
together more than 20 partners to leverage more than $3.3 
million to restore severely burned areas and watersheds that 
serve as municipal water supplies to Colorado and along the 
front range communities. Solutions were developed 
collaboratively and implemented using a mixture of volunteers, 
contractors and agency resources to restore streams, reduce 
sedimentation, control invasive species and improve vegetation.
    In Northern Arizona the Forest Service partnered with the 
National Forest Foundation, the Salt River Project and other 
stakeholders in the Northern Arizona Forest Fund which focuses 
on streams and wetland restoration, sediment and erosion 
management.
    In California, the Pacific Southwest Region signed the 
first massive stewardship agreement between the Forest Service 
and Joint Powers Watershed Authority comprised of six water 
agencies in three counties, the Upper Makelumne Watershed 
Authority. The goal of this partnership is to enhance water 
supplies and protect water quality and the environment both in 
the Upper Makelumne River Watershed as well as downstream.
    Another successful partnership has been forged between the 
U.S. Forest Service and the California Natural Resources 
Agency. In 2015 we entered into a MOU to work in partnership to 
implement the Sierra Nevada Watershed Improvement Program which 
is called the WIP. The WIP is a coordinated, integrated, 
collaborative program to restore the health of California's 
primary Sierra Nevada watersheds to increase investments and 
needed policy changes. The activities undertaken by WIP 
benefits wildfire management, mitigation investment, 
restoration efforts, water and air quality, carbon storage, 
fish and wildlife and community resilience.
    Beyond these specific projects the National Forest System 
has undertaken an evaluation of watersheds using a watershed 
condition framework. This provides a tool for each forest and 
district to assess threats and deteriorated conditions and to 
prioritize work to ensure a strategic, targeted approach to 
improving watershed health.
    Water is perhaps the most fundamental of natural resources, 
and engaging youth and conservation stewardship in promoting 
healthy, active lifestyles is critical to the future management 
and the health of our nation's water supplies. The Forest 
Service, with other government agencies and partners at every 
level of the public and private sector, is dedicated to a 
continuing conservation legacy in an effort to secure our water 
future.
    Well Senator, that concludes my statement and I would be 
happy to answer any questions you might have at the end of the 
panel.
    [The prepared statement of Mr. Moore follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you very much.
    I love the way that you all stay within the five-minutes. 
[Laughter.]
    You must have done this before.
    Alright, Mr. Smith.

 STATEMENT OF DAVID SMITH, ADMINISTRATOR, DIVISION OF FORESTRY 
 AND WILDLIFE, DEPARTMENT OF LAND AND NATURAL RESOURCES, STATE 
                           OF HAWAII

    Mr. Smith. I will see if I can stay to that. [Laughter.]
    I am David Smith, Administrator with the Division of 
Forestry and Wildlife, and I appreciate this opportunity to 
examine opportunities for Federal and non-Federal partnerships 
in integrated water management and efforts to improve water 
security in Hawaii.
    In the late 1800s, vast areas of Hawaiian forests were 
cleared by grazing, unregulated logging and fires. As forests 
disappeared, our water supply was threatened and streams and 
springs began to dry up across the state. In 1903, Hawaii 
established the first state forestry division in the nation, 
spurred by the recognition of the important connection between 
forests and water security.
    In the early 1900s, our agency undertook an ambitious 
effort to fence a million acres of forested watershed, remove 
introduced grazing animals, control wildfires and plant trees 
to restore deforested areas. A century later this work is no 
less relevant, and the State of Hawaii continues to prioritize 
watershed protection through the Governor's Sustainable Hawaii 
Initiative.
    With the recognition that 66 percent of Hawaii's forests 
are in private hands, we worked cooperatively with our Federal 
and private partners to establish the Watershed Partnership 
Program in 1991, an innovative voluntary partnership of forest 
landowners, organizations and agencies dedicated to the 
protection of forested watersheds. This groundbreaking model 
has been very successful in Hawaii allowing landowners to work 
across ownership boundaries to cooperatively manage watersheds.
    A number of federal agencies assist with watershed 
protection, research, and management actions in Hawaii. They 
assist the state with the landscape scale protection, watershed 
protection, management of ecosystems and native species and 
forest management on state and private lands.
    The U.S. Geological Survey's Pacific Islands Water Science 
Center has been conducting important research that quantifies 
how our forests protect our water supply and how forest 
degradation can dramatically decrease water availability. 
Research by the Biological Resources Division informs our 
management of wildlife and plant populations throughout the 
state.
    National parks and national wildlife refuges protect some 
of Hawaii's most impacted native forests. The Department of 
Defense and the U.S. Fish and Wildlife Service's Endangered 
Species Programs are central to restoring populations of birds, 
plants and invertebrates that are part of an interdependent 
network essential to overall forest ecosystem health.
    The U.S. Department of Agriculture, through its U.S. Forest 
Service, Natural Resources Conservation Service and Farm 
Service agency provides technical and funding support for 
Hawaii's watershed projects. In particular, the USDA 
competitive grants programs, offered through the landscape 
scale restoration, forest legacy, joint chiefs restoration and 
regional conservation partnership programs, directly contribute 
to forest management that enhances water quality and quantity 
in Hawaii. These competitive programs, in addition to the U.S. 
Forest Service and NRCS base programs, have expanded important 
work in upland forests and are critical for water security.
    With the growing threats to the nation's forests there is a 
need to increase the scale of proactive management; however, 
wildfire suppression costs are consuming the U.S. Forest 
Service's funding for preventative management to restore forest 
health and resilience, protect clean water supplies and support 
climate change adaptation strategies. There is a clear need to 
have separate fire and emergency response funding for wildfire 
suppression to maintain the Forest Service restoration 
management programs that promote proactive management of the 
nation's forests and will ultimately result in healthier, more 
resilient landscapes.
    Measures such as the proposed Wildfire Budgeting Response 
and Forest Management Act, the Recovery in America's Wildlife 
Act and the existing Healthy Forest Restoration Act can all 
help to promote sustainable forest management. Further, 
management of these diverse forest threats require up to date 
research as provided through programs such as the U.S. Forest 
Service's Institute of Pacific Islands Forestry. They provide 
expertise in critical natural resource management needs for us 
here in Hawaii.
    Hawaii is faced with other urgent forest health concerns. 
The Governor talked about Rapid Ohia Death and the leadership 
from federal agencies such as the Forest Service, Agriculture 
Research Service, the USGS and the National Park Service have 
helped to provide research and guidance helping us to 
characterize and contain this disease.
    Federal agencies have also provided expertise to support 
the state's development of new mechanisms for watershed 
protection through programs that promise to provide financial 
incentives through private sector partnerships such as payments 
or credits for ecosystem services and carbon sequestration.
    Hawaii was an early leader in watershed protection and 
continues to engage on a national scale. Federal agencies add 
to the efforts of our local agencies and organizations and are 
essential to the success of our interconnected watershed 
partnerships.
    Thank you for holding this hearing on this important issue. 
Hawaii has a long history of forest protection and partnerships 
and we hope that Federal support and collaboration will 
continue to expand as both the threats and the importance of 
these forests are magnified in the future.
    [The prepared statement of Mr. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you very much to all of our 
panelists.
    I have some questions for each of you as well as for the 
panel at large, if we can get to those.
    Mr. Smith, given the Governor's recent announcement for the 
state to pursue the goal of protecting 30 percent of priority 
watersheds by 2030 and right now we are protecting, as he said, 
some 15 percent, it is clear that watershed protection and 
water security are priorities for our state.
    Can you speak more to how high of a priority these are for 
the state and how does this compare to the importance and 
prioritization these are afforded by the state ten or 20 years 
ago? And how do you think that these will be ranked 20 years 
from now? It is a series of questions. Along those lines, what 
needs to happen for the state to achieve its goal of protecting 
30 percent of priority watersheds by 2030? And are there clear 
ways in which the federal agencies can contribute to helping 
the state reach this goal?
    Mr. Smith. Yes, there is currently a real strong push from 
the state government to protect forested watershed. This is a 
continuation, I mean, the baseline for our agency is watershed 
protection, so this has been a tradition in our agency since 
its inception, you know. It is over 100 years worth of 
protection. Just recently there has been a very strong push.
    Senator Hirono. Yes.
    Mr. Smith. From the recent administrations to protect 
native forested watershed. And you know, we expect that to 
continue on to the future. Our legislative leaders recognize 
the need, and the Governor is certainly strongly committed to 
it. And so, with continued support, funding support at the 
state level, we should be able to reach our goals.
    It is definitely an ambitious program and we are looking 
for legislative support. But we have been getting it and it is, 
along with leveraging through partnerships, you know, that is 
really one of the really keys here is to be able to leverage 
those partnerships.
    You are going to hear from stakeholders in a little while. 
They are the folks that we work with out on the ground to get 
some of this work done.
    The Federal agencies are key, you know, for things like 
Rapid Ohia Death and a lot of our forest management programs, 
you know, the U.S. Forest Service is a key agency.
    I think one real important thing is this fire borrowing. We 
need to fix that because that is taking money away from a lot 
of these sustainability programs.
    Senator Hirono. Yes.
    Mr. Smith. And so, something needs to be done to make sure 
that we are able to put water into sustainability in forest 
health and resilience of the forest so they can adapt to some 
of the fire threats, especially in the Western United States. 
But even though it is the Western United States, fire problems 
affect us because the fire borrowing takes from the Forest 
Service and then employees are affected by having the programs 
that really support Hawaiian watershed forests.
    Senator Hirono. I am sure you are aware, or maybe you are 
not, but you certainly are Mr. Moore, that the Energy Committee 
in the Senate has had a number of sessions regarding the fire 
borrowing and what that is doing to the budget.
    For the Forest Service, while our Committee is well aware 
of the extent of fire issues all across our country, of which, 
by the way, Hawaii is on par in terms of the percent of acreage 
that burns. Of that, our Committee is very aware. We just have 
to get everybody else to understand that this continual fire 
borrowing is very detrimental. Of course we will continue to 
push for all of that.
    Do you feel that in the State of Hawaii with everything 
that is happening with Rapid Ohia Death, climate change, 
etcetera, that you are seeing a sense of urgency?
    You did say that we have been doing these kinds of programs 
for a hundred years, but do you feel more of a sense of urgency 
now with everything that is happening and what we need to do in 
Hawaii?
    Mr. Smith. Absolutely, and we've really stepped up the 
efforts in the last several years. The legislature and the, you 
know, at the Governor's request and legislative support has 
provided millions of dollars that was not previously allocated 
for watershed protection and management.
    And so, there certainly is a sense of urgency. People are 
starting to understand and seeing the effects of climate change 
and what not, and we're going to feel that very strongly here 
in Hawaii because we are out in the middle of the Pacific, all 
our water comes from rain. The Hawaiians said that the rain 
follows the forest and they understood, very clearly, that 
forest and water is interrelated.
    Senator Hirono. I think that our panelists from the Federal 
Government, you are very well aware that Hawaii is very 
uniquely situated and that we get so much of the water that we 
need from our aquifers and rain, as opposed to rivers and dams. 
We do not have those in Hawaii, so the partnership with the 
Federal Government becomes even more important, the various 
programs that we have.
    I am glad that the Governor mentioned Rapid Ohia Death 
because to the extent that is covering, I believe he said, some 
50,000 acres, and we have not figured out how to stem this 
Rapid Ohia Death issue in our forested areas.
    Mr. Smith. Yes, it's really a scary issue. Ohia is the 
keystone species for the Hawaiian forest. Losing it would be 
devastating. So those types of issues help to underlie, you 
know, the level of urgency on these.
    Senator Hirono. And in that we probably could use more help 
from the Federal agencies.
    Mr. Smith. Absolutely.
    Senator Hirono. Particularly, would it be the Department of 
Agriculture or what Federal agency do you think would be the 
most appropriate?
    Mr. Smith. We work primarily with Agriculture and are also 
working with the National Park Service because they have some 
big land holdings on the Big Island.
    But really being able to characterize the disease, figure 
out how it is spreading and be able to contain it, are our 
focus right now and the Forest Service is going to want to 
remain a partner to that.
    Senator Hirono. By the way, since a large part of our 
blueprint for what we need to do regarding water usage is to 
improve our community's understanding, you are also focusing on 
practices of the health department, I really do not know which 
state department, conservation aspects, and that we need to use 
less water in the State of Hawaii per person.
    Mr. Smith. Yes, absolutely.
    Senator Hirono. Can you get involved in that area?
    Mr. Smith. Absolutely. It is not necessarily in our main 
mission on the conservation side, but we do work closely with 
the water resource agencies looking at how water is delivered 
to residential and agricultural customers and working on ways 
to deliver water more efficiently, that they are turning some 
of the old ditch systems which had a lot of leakage into pipe 
systems so it is more efficient.
    I know Senator Gabbard, for instance, and Rep. Yamane are 
very keenly aware of the water conservation side of the 
equation.
    Senator Hirono. For Mr. Moore, I know that USDA has 
partnered with the Department of the Interior to pilot the 
Western Watershed Enhancement Partnership in six Western states 
and you did mention that in your testimony, I believe? That is 
in the continental U.S. for the purpose of reducing wildfire 
risk to water supplies. As you know, Hawaii is on par with 
Western states, as I mentioned, on percent land burned, and 
invasive species contribute to wildfire risk and threaten our 
watersheds.
    Do you think this partnership should be made permanent 
because right now it is a pilot program? And do you see 
benefits to expanding the partnership to Hawaii and other 
Pacific Islands, and if not this specific partnership, do you 
see benefits and opportunities for the Forest Service or more 
broadly, USDA, to engage in similar partnerships in Hawaii?
    Mr. Moore. Thank you, Senator.
    I certainly think that it has been very helpful in terms of 
engaging the greater community and to securing all water flows 
and water rights.
    You know, one of the things that we are noticing though is 
that this is going to be a long-term issue and what we have 
done in the past which we have to improve upon is engaging our 
youth because this is going to be, like I said, a long-term 
issue and our youth need to understand the importance and the 
connection with these urban areas, with these rural areas that 
provide the water supply.
    And I will give you an example in terms of how that is 
being affected. You know, a lot of the reservoirs supply 
hydroelectric which provides energy into urban populations. And 
when you have a wildfire and it really affects a number of 
things. One, the carrying capacity of the reservoir to generate 
that electricity. But the other piece is the burning down of 
utility corridors and having to reroute the energy and in some 
cases, do without energy.
    And having these partnerships really allows the greater 
community to be engaged in, not only what we do, but how we go 
about being responsive to the water flow.
    Senator Hirono. Since this is a pilot program right now 
with your agency, do you think that it should be made permanent 
and can we have something like this in Hawaii?
    Mr. Moore. I think if it is made permanent it would be a 
good thing, and I certainly think it can apply to Hawaii. I 
think Hawaii has a unique opportunity. The area, it is almost 
like a little enclosed island.
    Senator Hirono. Well, it is. [Laughter.]
    Mr. Moore. But what I have noticed is that----
    Senator Hirono. Most remote land is.
    Mr. Moore. It is a family environment and that most of 
your, the key non-profit, special interest groups, they work 
together quite well as compared to some of the mainland 
opportunities where there's a lot of consternation and 
sometimes litigation because we cannot agree on things. So I 
think putting this in Hawaii would be a great place because you 
have the partnerships and your relationships there.
    Senator Hirono. Thank you. I will be wanting to work with 
you on how to make----
    Mr. Moore. I would be happy to.
    Senator Hirono. This happen and to come to Hawaii.
    Mr. Anthony, in your testimony you mentioned the Secure 
Water Act and the work that USGS is doing to better understand 
water availability under that authority. The Act authorizes a 
number of programs to address water security in the West, 
including programs to study and improve security through a wide 
range of activities.
    Unfortunately, Hawaii is not eligible for many of these 
programs because Hawaii is not a traditional Reclamation state. 
And as an island state that faces severe, really challenging, 
water issues, I believe there is a need for Hawaii to access 
the same kinds of federal programs and assistance that have 
been so important in other Western states.
    What kinds of opportunities would strengthen federal 
engagement and support for addressing Hawaii's water security 
and what do you think are some of the opportunities and 
challenges to improving federal and non-federal partnerships to 
help address Hawaii's water challenges?
    Mr. Anthony. Thank you for that question.
    Yes, it is true that Hawaii is not termed a Reclamation 
state and if you would like more information on that and what 
it would take for Hawaii to become a Reclamation state I could 
have folks look into that and respond to the record for that.
    But what we have been able to do within the Department of 
the Interior is we have an initiative called Water Smart, and 
Water Smart stands for Sustainable and Managed America's 
Resources for Tomorrow. This Water Smart initiative allowed 
some collaborative efforts with USGS and the Bureau of 
Reclamation, and USGS' primary role in that is a national water 
census. That effort is extremely important because for us to 
secure our water future we need to understand how much water we 
are using and for what aspects of our sector, whether that be 
the industrial, utilities for public supply or agriculture.
    And our water use reporting in our nation is lacking. We, 
at USGS, work with states and federal agencies and local 
agencies to pull that information together every five years; 
however, that is not at a frequency that is sufficient enough 
to really assist decision-makers. Also through the National 
Water Census we have been able to provide grant funding to 
states to try to improve water use reporting.
    There are other aspects with the National Water Census that 
we are involved in related to estimating stream flow at 
ungauged sites or in our nation as well as assessing ground 
water availability and Hawaii is one of the areas where we have 
been doing these regional ground water availability studies, 
building island-wide ground water flow models for the island of 
Oahu, Mokelumne, sorry, Oahu, Maui, and Kauai. Those models 
allow us to look at the impacts of developing ground water on 
stream flow as well as salinity within the aquifers.
    Also, as part of the National Water Census, we are looking 
at evaporation losses such as evapotranspiration and the role 
of ecology in the importance of sustaining ecological services 
and how the development of water resources does have 
consequences on our ecology and it is important to find a way 
to balance our needs for humans as well as ecology.
    And then finally under the Water Smart activity that USGS 
has there are geographic focus area studies that are being 
undertaken and there are three currently underway within the 
U.S. I am hoping that we could bring one of those focus area 
studies to Hawaii in the future.
    Senator Hirono. I would like to work with you on a number 
of those issues including enabling the State of Hawaii to 
access all of these programs that other Western states have 
access to.
    Now, there have been several of our witnesses who commented 
on a ``Blueprint for Action.'' I do not know if the two of you 
have had a chance to read this, but one of the suggestions that 
applies to what you were just talking about is regarding the 
reporting. The council that put together this blueprint 
recommends that USGS and our Water Commission and County Water 
Departments develop and establish consistent methods, standards 
and indicators to monitor the status and trends in fresh water 
availability, etcetera. If all of these different agencies are 
not using comparable measurements, that makes it difficult for 
decision makers to figure out what is really going on.
    So is this something that you can work with us on to 
develop these consistent measurements?
    Mr. Anthony. Yes, in fact just this year in cooperation 
with the State Water Commission, the USGS is engaging in a 
cooperative effort with them to identify what our water 
resource monitoring needs are in our state.
    Over the number of the last few decades there has been a 
decline in monitoring as money has gotten tight for water 
resource monitoring. And so, this effort is focused on trying 
to figure out where do we need to collect rainfall data, ground 
water levels, salinity data in our wells, as well as stream 
flow. And that effort is being undertaken, you know, again, in 
cooperation with the state water commission but also through 
that process we'll be engaging the county water departments and 
other stakeholders.
    And one aspect of that is how do we bring together the data 
that's also collected by others, not just USGS and as that 
initiative talks about ultimately creating a shared environment 
where all the data from the various agencies and others are 
coming together and perhaps one place for that is at the 
University of Hawaii as they've recently have an NSF grant 
called EPSCoR.
    Senator Hirono. Twenty million, I think it is.
    Mr. Anthony. Yes. And so that is a very nice opportunity to 
bring together.
    Senator Hirono. Yes.
    Mr. Anthony. The efforts of many.
    Senator Hirono. Thank you very much.
    It is very clear that there are a lot of entities, private, 
public, federal, county, people working in all these areas and 
the word holistic was mentioned by the Governor and others.
    This question is for the entire panel. Can you provide an 
example of really successful landscape-scale management, 
something that you mentioned, you used that term, Dave, 
partnership and landscape scale meaning working across 
boundaries and jurisdictions and taking into account the water, 
land, wildlife, etcetera, for a holistic management approach?
    What aspects allowed the successful partnership to work and 
are those successes translatable to watershed management 
initiatives here in Hawaii? And possibly for the two of you, 
because you have an awareness of what is going on with these 
holistic approaches all across the country, is there a model 
that we can look at?
    Mr. Moore. Yeah.
    Senator Hirono. Mr. Moore.
    Mr. Moore. We don't have a national forest in Hawaii, so 
the experiences would be different. We'd be working through the 
state and looking at landscape but I'll give you some examples.
    In California under the Farm Bill, the Good Neighbor 
Authority, we have been working to use a lot of different 
moneys coming in to look at landscapes. And the thing that 
we've noticed is that watersheds, it just has no boundaries and 
that we need to get together with federal, state, local, and 
special interests and look at what's best for that landscape 
and what's best for that land.
    The Farm Bill authority, particularly under the Good 
Neighbor part of that, has given us the opportunity to have 
state money spent on federal lands and vice versa.
    You can also make investments. And we're exploring 
opportunities now where investment bankers are looking at the 
ideal of investment, restoration of the landscape that they can 
receive some type of a profit. We haven't worked that out yet 
but it's these types of new ideals that are emerging, simplify 
taking a landscape approach and trying to bring the greater 
community into trying to be responsive to needs.
    And so, the state, California, for example, has a cap and 
trade system. Some of already news that's generated from a cap 
and trade system, I noticed the Governor had put about $150 
million into the forested sector for the 2016 budget. And 
whether that's going to go through or not, I don't quite know, 
but it's recognizing the importance of forestry and how that 
greater community needs to be working together.
    So we're working on that now and we have examples across 
the U.S., Arizona, Colorado and other places where we're trying 
to work across boundaries so that it's irrelevant who manages 
those different boundaries, and we're seeing some successes 
there in California.
    We've estimated, I don't know if I'm giving you more than 
what you're asking for, but we've estimated the National Forest 
in California, about 55 to 60 percent of all the water runs off 
the national forest and it's the drinking supply for about 23 
million Californians. And if you had to put a value on that 
water, it's about $9.5 billion per year and that also helps 
support about a $38 billion agriculture industry.
    And so because you have most of that coming off the 
national forest, we're beginning to look at ways to explore and 
engaging a lot of other people in what we do because in the 
past the Federal Government, we would sit down and say here's 
what we think. What do you think about what we think?
    And what we're finding now through collaboration and 
facilitating the different expertise out in that greater 
community is that we sit down together and we decide what we 
want to think about and what we want to do. And I think--so I'm 
very hopeful moving into the future that that's the way to go, 
a more collaborative, facilitative approach. And using some of 
the authorities like under the Farm Bill and the Good Neighbor 
Authority is helping us to do that from the federal side.
    Senator Hirono. So it is not necessarily a one-size-fits-
all, of course.
    Mr. Moore. No.
    Senator Hirono. But the key is for the stakeholders to be 
sitting together.
    Mr. Moore. Yes.
    Senator Hirono. And to identify what resources there are at 
the state, local and federal levels and to leverage those 
resources.
    Something you mentioned that was interesting is that you 
are getting the financial industry in California to step in. I 
do not recall that there are any of our financial industries 
who are involved in these issues?
    Mr. Smith. Well, we're working on models for carbon 
sequestration and getting different private organizations 
involved so folks like Hawaiian Airlines and Coca Cola have 
been already mentioned, and we're looking at--perhaps Disney. 
Some of these folks that cater to the visitor industry and 
looking at trying to calculate carbon impacts of traveling and 
going on vacation and flying and all that.
    These private companies are very interested in 
participating and trying to figure out how they can give back, 
how people that are traveling, how they can provide 
opportunities for people that are traveling to help offset some 
of the impacts of their activities. And so, that's----
    Senator Hirono. I think that is really important, because I 
would have liked to have somebody from our tourism industry be 
able to work with us today but we were not able to do that. 
Tourism is our number one industry and they, obviously, use a 
lot of water so they need to be at the table. Thank you very 
much for working toward that goal.
    Did you want to add anything to this conversation?
    Mr. Anthony. Yes, I'd like to point out two examples of 
partnership activities that, I think, are a good model to be 
thinking about.
    And one being an effort that's taking part in the Western 
part of the United States is it has to do with the National 
Drought Resilience Partnership that President Obama had called 
for where it's bringing together federal agencies to form a 
federal action plan to help states and local entities build 
resilience toward drought.
    And as you're well aware, there are many federal agencies 
that have a role in water, and there are efforts needed to help 
bring us together. This partnership, from what I'm hearing, has 
been quite effective and it's something that we've heard from 
the Western States Water Council that they're frustrated with 
federal agencies in that there are so many of them that deal 
with water and there needs to be better alignment in working 
toward common goals. And I think this partnership seems to be a 
good example of that.
    The other is something that's been going on locally here in 
Hawaii which is a NOAA-funded effort called Pacific Research. 
With that effort there are researchers at the East-West Center 
and others at the University of Hawaii, and USGS is partnering 
with them to try to bring together decision making tools that 
are addressing not only water but land management decisions. 
One of their focus areas is Maui, and they've been interacting 
with county and state government officials trying to understand 
what are the land management plans of the future. And then 
USGS' role in that is trying to figure out how those changes in 
land use may impact prime water recharge and ultimately ground 
water availability.
    Senator Hirono. Okay.
    I know that I am going to be working/following up with both 
of you regarding the various programs and whatever we can do to 
enable Hawaii to access more of the resources and programs and 
any other ideas because what is emerging, of course, is the 
need to bring everybody to the table in a way that doesn't 
drive everybody crazy, right? There are 50 people sitting here. 
We want to be efficient and effective in how we proceed.
    Thank you very much to the second panel.
    We will now move to our third panel, our last panel.
    We have Matt Gonser, he is with the Extension Faculty with 
the University of Hawaii, Sea Grant College Program. The 
University has done a lot of work looking at water security 
issues and, as mentioned, recently received a $20 million grant 
from the National Science Foundation to study over the next 
five years water sustainability issues in Hawaii.
    Next we have Trae Menard, Chair of the Hawaii Association 
of Watershed Partnerships. Trae works on Kauai and will provide 
not only the perspective of on the ground watershed protection 
but also some activities that are ongoing on our neighboring 
islands.
    Next is Dr. Sam Gon, who is the Senior Scientist and 
Cultural Advisor with the Nature Conservancy of Hawaii, or 
TNCH. Dr. Gon, I look forward hearing from you, not only on the 
various watershed protection activities that TNCH is doing but 
also the importance of watershed protection in water security 
to the native Hawaiian community.
    We will start with you, Matt.

    STATEMENT OF MATTHEW GONSER, EXTENSION AGENT, COMMUNITY 
  PLANNING AND DESIGN, UNIVERSITY OF HAWAII SEA GRANT COLLEGE 
                            PROGRAM

    Mr. Gonser. Aloha and good morning. Thank you, Senator 
Hirono and the Committee for scheduling this hearing and 
allowing us to speak on the subject of integrated water 
management and efforts to improve Hawaii's water landscape. I 
also thank my fellow speakers for your important contributions 
on the subject today. Lastly, I thank Dr. Darren Lerner, the 
Director of the University of Hawaii Sea Grant College Program, 
Interim Director of the UH Water Resources Research Center and 
the University Director of the Pacific Islands Climate Science 
Center, for affording me this opportunity to speak and 
represent the Hawaii Sea Grant program.
    The following is a summary of my full testimony which has 
been duly submitted for the record.
    Thank you to the Senate for passing S. 2848, the Water 
Resources Development Act of 2016. There are critical 
reauthorizations, modifications and additions designated in 
that bill, specifically those in Title VII, Subtitle B and C, 
relating to clean water infrastructure and innovative 
financing, respectively.
    We are also grateful to you, Senator Hirono, for 
highlighting areas that are important for Hawaii, such as 
making it easier for the Federal Government to enter into 
public/private partnerships for water infrastructure projects 
and directing the EPA to promote green storm water 
infrastructure projects.
    Hawaii has a history of water quality and quantity 
challenges. In the last two years alone heavy summer rains from 
both named and unnamed storms resulted in significant 
disruptions, ground water advisories and temporary beach 
closures due to sewage spills at multiple locations.
    In my work as an Extension Agent and member of the Hawaii 
Sea Grant faculty, I've heard strong local interest in 
receiving additional support, guidance and concentrated 
attention on topics of community greening, green infrastructure 
and flood risk reduction and resilience.
    In addition to certain rain and storm water conservation 
and efficiency practices of water capture, recycling and reuse 
and the regulation of storm water at the parcel and building 
scale, there are opportunities for interventions within the 
public right of way that can provide multiple community co-
benefits. This highlights the integrated management and 
resource needs connecting agencies such as the National Academy 
of Building Sciences, Federal Highways Administration, HUD and 
non-profit professional organizations with national memberships 
in the design and planning fields.
    A case study in the challenges we are discussing today is 
the Ala Wai Watershed. The State, City, and County of Honolulu 
Corps of Engineers and community stakeholders have been engaged 
in efforts to understand and better manage the Ala Wai 
Watershed. These efforts were advanced this past legislative 
session with the adoption of House Concurrent Resolution 61 
which endorses and supports the Ala Wai Watershed Partnership. 
With interest in a holistic systems approach to solving issues 
in the Ali Wai Watershed through Waikiki there are visions for 
ecosystem restoration, water quality improvements, flood 
mitigation and risk transfer and a coordinating entity to 
implement these visions. Partners encourage the Congress' 
continued support of the Corps in the Ali Wai Watershed through 
necessary appropriations and authorizations and urges to use 
the full suite of tools provided through WRTA.
    Trees are possibly the most conspicuous piece of 
environmental infrastructure and one that accrues benefits and 
becomes more valuable over time while also addressing other 
community, environmental and social justice disparities, choose 
our long-term investments with significant underappreciated 
returns on that investment.
    I currently sit on the Advisory Council for the State DLNR 
Kaulunani Urban and Community Forestry Program. This program 
focuses on improving the health and viability of trees in 
Hawaii's urban and town centers. Funding for this program comes 
from the State and Private Forestry Branch of the USDA Forest 
Service. The work at DLNR, the Watershed Partnerships and 
Kaulunani are critical for a future green Hawaii and the 
programs appreciate Congress' continued support.
    Lastly, communities statewide have benefited from various 
technical assistance opportunities offered through the EPA, FTA 
and NOAA. Just last week Hawaii Sea Grant in partnership with 
the City and County of Honolulu submitted an application to the 
EPA to gain support toward flood resilience. If awarded, your 
small investment into the EPA's Research and Services will be 
further leveraged and extended through Hawaii Sea Grant's 
statewide extension network providing greater returns on the 
EPA's building blocks for sustainable communities program.
    The service of organizations such as Sea Grant within NOAA 
and WRRC and PI-CSC with the USGS continue to serve important 
research extension and education outlets for the vast and 
developing green infrastructure and climate and water 
resilience resources developed by EPA and others. Such 
activities only further federal resources, which is consistent 
with interagency partnerships and a 2011 Memorandum of 
Agreement between the EPA and NOAA, for example. This 
particular partnership identifies a strong Sea Grant role in 
delivering products, services, and research results to local 
community decision makers to meet the partnership's potential 
to serve state and local governments.
    In closing, we thank the committee for its willingness to 
conduct this field hearing and work on these critical issues.
    Thank you Senator Hirono for the opportunity to speak today 
and with respect to today's subject, we thank you for your 
continued support of the University of Hawaii and its Sea Grant 
College Program, Water Resources Research Center and Pacific 
Islands Climate Center.
    [The prepared statement of Mr. Gonser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you.
    Mr. Menard.

    STATEMENT OF TRAE MENARD, CHAIR, HAWAII ASSOCIATION OF 
       WATERSHED PARTNERSHIPS, AND THE NATURE CONSERVANCY

    Mr. Menard. Aloha, Senator.
    Senator Hirono. Aloha.
    Mr. Menard. My name is Trae Menard, and I am providing 
testimony in my capacity as the Chair of the Hawaii Association 
of Watershed Partnerships and also from my perspective as the 
Coordinator of the Kauai Watershed Alliance for the last 11 
years.
    Really, you know, much of my testimony has already been 
covered so I'm going to excerpt it somewhat.
    The fundamental concept behind the watershed partnership 
model stems from the realization that the only way to address 
the primary threats to the forest is to work across landowner 
boundaries and apply the necessary management actions 
consistently and at a large scale.
    Before the partnerships these actions were occurring mostly 
on state and federal lands with very little private landowner 
cooperation. This resulted in fragmented protection.
    For example, before the Kauai Watershed Alliance was formed 
in 2002 there was very little communication between the state 
and private landowners and virtually no forest protection 
actions taking place on private lands and very little interest 
in conservation in general. Today, as David Smith mentioned, 
the private landowners account for a significant portion of our 
watershed lands, upwards of 66 percent, and these private 
landowners are now committed to protecting watersheds and 
conserving native forests.
    The partnership meetings are a forum to discuss everything 
from a variety of topics of the environment ranging from 
endangered species, invasive species, water issues and 
pollution. Whenever federal agencies are planning a particular 
action, like critical habitat designations, endangered species 
listings, they contact watershed partnerships so that we can 
facilitate communications with those private landowners.
    For the past 25 years the coordinators of these 
partnerships and their staff have been constructing fences and 
removing destructive feral, hooved animals from thousands of 
acres of priority watershed areas throughout the state and 
controlling invasive plants, some of which use significantly 
more water than the native vegetation. In many cases, they've 
been active in preventing and controlling wildfires, combating 
forest diseases and pests, like Rapid Ohia Death, planting 
native trees and restoring degraded areas, educating the public 
about the cultural, economic and environmental importance of 
our forests. All of these actions are detailed in watershed 
management plans which are developed by the coordinators and 
approved by partners in each of the partnerships and then 
implemented by the coordinators and their staff.
    The coordinators are responsible for compiling most of the 
environmental documentation and acquiring permits, with the 
help from their staff at the State Division of Forestry and 
Wildlife and holding public meetings. A typical day for the 
coordinators and their staff can include working with local 
hunters on the location of the next fence, managing complex 
helicopter operations in bad weather, hiking miles through 
dense forest and rugged terrain, crossing raging streams or 
rappelling off cliffs. This is a difficult and dangerous job 
and requires highly-trained, very skilled and dedicated staff, 
willing to do whatever it takes to achieve the goals.
    We've mentioned Governor Ige's goal, the 30 by 30, 30 
percent of our watershed forests should be protected by 2030. 
We are currently protecting 15 percent and 5 percent of that 
has become protected in the last five years. If we are to meet 
this ambitious goal, we need to maintain the pace of adding new 
fenced and managed acres while maintaining the acres that have 
already been fenced and protected. Daunting as it may seem, the 
watershed partnerships are fully prepared to make this goal a 
reality. We have the technology, the experience, and the proven 
track record of success.
    What we need is a constant flow of funding and this is 
where agencies like the Department of the Interior, the 
Department of Agriculture and even the Department of Defense 
can play a decisive role. We have a long history of working 
with the U.S. Fish and Wildlife Service, the National Park 
Service, the U.S. Forest Service, the Natural Resource 
Conservation Service and the U.S. Army among many more and hope 
to continue that relationship in the coming years.
    In closing, I wanted to leave you with a quotation from 
Hawaii's first Territorial Forester, Ralph. S. Hosmer, ``In 
Hawaii, the most valuable product of the forest is water, 
rather than wood. It follows that conservation of its 
watersheds by keeping them permanently clothed in protecting 
forests, is the chief duty of the forester.''
    The first foresters in Hawaii recognized the importance of 
watershed protection to sustain our fresh water resources and 
now it's our duty to carry on that vision and secure our future 
of Hawaii and its people.
    Mahalo for inviting me to present to this committee.
    [The prepared statement of Mr. Menard follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Hirono. Thank you.
    Dr. Gon.

    STATEMENT OF DR. SAM GON, SENIOR SCIENTIST AND CULTURAL 
           ADVISOR, THE NATURE CONSERVANCY OF HAWAII

    Dr. Gon. Senator Hirono, if you'll indulge for a moment 
before I begin.
    [Chants in Hawaiian.]
    Senator Hirono. Thank you.
    Dr. Gon. Aloha, Senator.
    Senator Hirono. Thank you.
    Dr. Gon. So, aloha, I'm Sam Gon, Senior Scientist and 
Cultural Advisor for The Nature Conservancy of Hawaii, State 
Chapter of the National and Global Conservation NGO.
    In Hawaii we manage 14 preserves and work in 19 coastal 
sites partnering with government, private parties and local 
communities to help manage forests and coastal areas.
    So, mahalo again for allowing me to testify at this field 
hearing.
    Hawaii's native ecosystems once extended from the summits 
from each of islands to the sea and our cultural traditions 
reflect a long, close relationship with native forests. 
Hawaiians traditionally see ourselves as part of, not separated 
from, nature considering the plants and animals that share our 
world as kin, elders, ancestors. The land is aina, that which 
feeds us and its rich diversity help nurture and shape an 
equally rich and thriving island culture.
    The forested upland watersheds, in particular, we're 
considered wao akua, the realm of gods and not for human 
incursion except for very specific needs and it restricts 
ceremonial protocols. Water came from the sacred forested realm 
to feed agricultural fields and fish ponds. Forest trees 
provided wood for temples, houses, canoes, tools. Forest plants 
were gathered for medicine, food, ornament and many other 
purposes.
    Today, roughly half of our native land cover is gone, 
particularly from the lowlands and the vast majority of native 
plants and animals find refuge in our upland forests. We too 
still depend on that native forest for our survival and well-
being.
    Our forests are our primary watersheds. They protect our 
reefs and our beaches from runoff. They clean and cool our air. 
They soothe and renew our spirits.
    And while historical impacts from agriculture, grazing, 
logging and development are responsible for much of the initial 
loss of native ecosystems, the threat today is ongoing 
degradation by invasive, non-native species, invasive animals 
that prey upon native species and spread disease and invasive 
plants that compete with and displace native ecosystems. In 
doing so they transform our forests by simplifying forest 
structure, altering soil composition, increasing the risk of 
fire and diminishing watershed function. Fresh water is 
actually quite a limited resource in the middle of the Pacific.
    Hawaii's latitude at 20 degrees is not a high rainfall 
zone, but for the topography and the forest cover of our 
Hawaiian high islands we would actually have very little fresh 
water. Trade winds moving across the ocean encounter our tall 
islands. Air is pushed upward rapidly into lower temperature 
and pressure. Airborne moisture condenses creating clouds and 
rain, the classic orographic effect.
    But cloud and fog interception by Hawaii's forest increase 
total water input by as much as 50 percent above the base 
annual rainfall. The 30 percent you cited earlier, that was 
from previous studies and it was on Kahala, in fact, the most 
recent numbers indicate closer to 50 percent.
    Senator Hirono. Okay.
    Dr. Gon. Intact Hawaiian forests, therefore, act as a 
living sponge, collect fallout rain and moisture and slowly 
deliver this water into our aquifers and streams, absorbing 
greenhouse gases and greatly reducing runoff. And on Oahu it's 
where 85 percent of Hawaii's population lives, the forested 
Ko'olau Mountains alone provide 135 billion gallons of fresh 
water annually or about half of Oahu's ground water recharge.
    Seen or unseen that same forest function operates on all 
the main islands providing each island's water supplies.
    Despite some reprieve during the last two El Nino years, 
several locations in the state have experienced prolonged 
drought and it's intensifying again. Now we're seeing more 
frequent and more severe storms that increase destructive 
runoff, but at the same time we see less total rainfall overall 
at higher temperatures that impact our watershed health and 
encourage outbreaks of pests and diseases.
    We've seen a century long trend of decline of rainfall here 
and even sharper declines in recent decades. Recent studies 
have shown that native forests are better at capturing rain 
water and recharging aquifers that forests degraded by invasive 
species. In response to these troubling development we're 
taking action to mitigate and adapt to bolster the resilience 
of our natural and human communities.
    Conservancy is working with our conservation partners, 
public and private throughout the islands to protect our 
precious forested watersheds. Our strategic approach is focused 
on managing our statewide network of forest preserves and--oh, 
really, no. [Laughter.]
    And integral parts of the larger public/private watershed 
partnerships.
    In conclusion, we see opportunities here for greater 
collaboration and we want to take this opportunity to thank you 
for being a champion of the Land and Water Conservation Fund's 
Hawaiian Forests at Risk project.
    We want to fix the U.S. forest wildfire funding mechanism, 
as you pointed out.
    Senator Hirono. Yes.
    Dr. Gon. And provide equity for Hawaii and the Federal 
Endangered Species recovery funding so that it's more truly 
proportional to the very large numbers of the threatened and 
endangered species found here.
    Thank you very much.
    [The prepared statement of Dr. Gon follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Hirono. Thank you, and I want to thank you for 
starting your testimony with a chant. Thank you very much.
    Okay, so, I want to thank the panelists. This is the last 
panel, and this is a question for all of the witnesses. Do you 
think there is a role for federal agencies to play in 
landscape-scale watershed protection in Hawaii? If so, what 
would that role look like and would it be a program to provide 
grants for certain activities? Would it be the federal agencies 
assisting existing partnerships to provide technical 
assistance? What would the ideal federal role look like to you?
    Mr. Gonser. Sure, thank you.
    I would just like to offer and go back to your original 
points about what a watershed is and reminding ourselves that 
in our discussions today we're certainly focused on our upper 
forested watersheds, but that common outlet is the sea. So we 
need additional consideration for where we inhabit so, the 
state urban lands and understanding that landscape scale 
strategies will be vastly different in the conservation lands 
versus those urban and town centers.
    The landscape of funding opportunities seems to be shifting 
more toward competitive opportunities. I'm a little cautious 
toward that because of, you know, our small population. There's 
only so much new initiative we can try to take on at any one 
point in time.
    So if there are ways to increase some of the support for 
programs that were discussed earlier today and from my 
colleagues here, that would be beneficial, but also 
reconsidering ways we can utilize the state revolving water 
funds for infrastructure type projects, either for both clean 
drinking water, but also some of the green infrastructure and 
the recharge to reduce the rainfall runoff would be 
additionally beneficial.
    Senator Hirono. I will get back to you after the other two 
witnesses have made a comment.
    Mr. Menard. Sure.
    I think, you know, from the watershed partnership's 
standpoint, we do work with multiple federal agencies both in 
the funding aspect as well as some of the technical expertise 
like, for instance, from the USGS.
    I think one of the main benefits of working with the 
Federal Government is through the funding, obviously, and the 
ability of the watershed partnerships to be able to leverage 
state funding, private funding, to help actually provide match 
for federal funds.
    In the past, we've been able to get federal funding for 
fencing projects, particularly on Kauai, where I work, during 
the downturn, economic downturn, we were able to get funding 
through the Forest Service through the ARRA program. And that 
was--and that enabled us to actually hire a local fence 
contractor to construct our fence. And that actually saved a 
lot of jobs.
    And so----
    Senator Hirono. Are you talking about the ARRA?
    Mr. Menard. Yeah, the ARRA funds in 2011, I believe?
    Senator Hirono. Okay, yes.
    Mr. Menard. So----
    Senator Hirono. It was a one shot deal.
    Mr. Menard. It was a one shot deal.
    Senator Hirono. Yes.
    Mr. Menard. But it came----[Laughter.]
    Senator Hirono. Thank you for maximizing what you did with 
that money.
    Mr. Menard. Yeah.
    You know, I think going forward, one of the biggest 
challenges I mentioned in my testimony is not only building 
more fences to keep pace and to achieve that 30 percent goal, 
but also to maintain the areas that we've already fenced off.
    And I think one of the, you know, like there's a quote from 
Kurt Vonnegut, that I like to use that one of the fundamental 
human flaws is that everybody wants to build and nobody wants 
to maintain. And I think that, you know, the more funding we 
can get to, not only build more fences, but also enable us to 
maintain what we've already got is going to be, you know, very 
important to reach that goal.
    Senator Hirono. In line with that comment we have huge 
infrastructure needs throughout our country to the tune of 
trillions. We need to address those.
    Did you want to add something, Dr. Gon?
    Dr. Gon. Certainly.
    I'm currently serving as the Chair of the Hawaii 
Conservation Alliance. That Alliance is a group of Federal, 
state and private organizations that together have combined to 
try to minimize the amount of duplication and to maximize the 
optimization of our efforts together in conservation in Hawaii. 
It includes the National Park Service, the Fish and Wildlife 
Service, the Forest Service, The Nature Conservancy of Hawaii, 
Kamehameha schools, Office of Hawaiian Affairs, State of Hawaii 
Division of Aquatic Resources. You name it. If it's an 
organization in Hawaii that's dealing with conservation, the 
Hawaii Conservation Alliance includes those members.
    Now it was through our efforts that we were able to pull 
together the resources and the arguments to bring the world to 
Hawaii for the----
    Senator Hirono. IUCN?
    Dr. Gon. Right, yes. Just recently and it was an amazing 
opportunity for us to demonstrate the power of that kind of 
collaboration of Federal, state and private organizations and 
bringing a focus on conservation.
    Therefore, the idea of how to fund our efforts here in 
Hawaii is a matter of coordination of the existing programs and 
ensuring that the highest priority management occurs. And in 
the conservation alliance the idea of protecting those large 
watersheds, those large landscapes of remaining native 
dominated ecosystems in Hawaii that provide so many services to 
us, is the way to go. And we get together and talk about what 
the National Park Service, the Fish and Wildlife Service and 
all of the federal agencies are doing and how we can best 
coordinate those kinds of efforts.
    So, I think that that would be one excellent route to bring 
to bear focus and optimize the federal opportunities that might 
be here.
    Senator Hirono. So, Matt, just very briefly I know that UH 
recently, as I mentioned before, received $20 million. Was that 
a competitive grant that the University of Hawaii sought and 
got?
    Mr. Gonser. I actually am not so familiar with the 
opportunity that was offered.
    Senator Hirono. Okay.
    Mr. Gonser. I believe it was the Science Foundation. I 
can't actually----
    Senator Hirono. Yes, so the National Science Foundation. It 
is a five-year study. That is a hefty amount for a study, 
sustainability in terms of water. So we will talk to the 
appropriate person. I guess it is not you, but you are doing 
other good things.
    Mr. Gonser. Thank you.
    Senator Hirono. Alright.
    Some of the things you mentioned leads me to this next 
question to all of you. Do you think that it would be helpful 
that federal agencies, such as the EPA, NOAA, DOI, USDA and I 
think I also heard FTA, DOD, all these federal agencies that 
have something to do with the subject matter at hand, formed a 
watershed protection council at the federal level to align 
their various watershed protection efforts and make accessing 
information and resources easier and support on the ground 
efforts that folks, such as you, are doing? Would that help to 
create a Federal Watershed Protection Council?
    Mr. Gonser. I'm not sure on say, the specifics of a title 
for it, but it sounds sort of in line with what has been a 
really successful Federal partnership between EPA, HUD, and 
DOT, the partnership for sustainable communities which really 
helps to educate the interconnectedness of all these systems 
that impact whether it's water resources, health or 
environmental quality.
    So along those lines but perhaps there are certainly better 
ways to bring in some of those federal agencies that don't 
necessarily get so engaged in the extension and education 
whether it's FEMA, through flood risk reduction because that, 
obviously, has a landscape and water component, others in NOAA 
and USGS as well.
    Sure, I could certainly see to Sam's, Dr. Gon's, point of 
better opportunities for coordination just to continue to 
maximize the investments that are already in place.
    Mr. Menard. Yeah.
    Senator Hirono. Mr. Menard.
    Mr. Menard. I think from my experience working with 
multiple agencies, it would be beneficial to have some kind of 
council where they could coordinate a lot of their actions, in 
particular, from the funding standpoint. Some agencies have 
certain requirements for grants that are different than other 
agencies, and certain agencies are going to be focused on 
funding a particular thing, like if there's a lot of endangered 
species in a particular area then that's the place to go, you 
go to the Fish and Wildlife Service. If it's a forest 
protection project, then you go to the Forest Service.
    I mean, I think that coordinating between those agencies 
and being able to say, okay, let's make sure that these guys 
get enough money to do the endangered species stuff and 
protect, you know, this much watershed and enough to get to the 
Forest Service to make sure that there's enough fire protection 
and other forest pathogens and pest money to go toward also 
protecting that.
    I think sometimes I wonder if there's somewhat of a 
competition for funding and maybe there could be some better 
coordination so there's maybe less overlap and conflict.
    But yeah, I mean in general I think it works fairly well. I 
mean, we've, like I said, we've gotten a lot of support from 
the federal agencies.
    Senator Hirono. Yes.
    Mr. Menard. And we've been able to make that work.
    Senator Hirono. So this is not an idea to try to get 
another group of people who are siloed. The whole idea is to 
break through the silos?
    Mr. Menard. Right.
    Senator Hirono. And to maximize our resources which are 
scarce enough as they are.
    Did you want to comment?
    Dr. Gon. Yes, certainly.
    I think that the model that we have here in Hawaii with the 
Hawaii Conservation Alliance, as I mentioned, was built out of 
exactly that kind of frustration with the idea of slightly 
differing mandates, different ways of mobilizing funds, 
different mission statements.
    And so, what the conservation alliance has been able to do 
over the course of its existence since, gosh, well before this 
millennium, certainly, is to identify what each of those 
mandates allow them to do and then to work to optimize the 
total picture of what the state, federal and private 
organizations within the state can do. So it was built, kind 
of, out of a desperation of the fact that we had so many 
endangered species, limited size, great pressures on our native 
ecosystems to preserve them and you know.
    As a result we have been able to work out a very amazingly 
cooperative relationship, and I think that same kind of 
relationship can be forged at a national level.
    Senator Hirono. Okay.
    Because it is not the easiest thing to identify all of the 
various federal resources and whatever grants there are because 
each one has a slightly different set of requirements and 
outcomes and all of that. It would help if everything were, 
sort of, put in one place so that as we deal with these issues 
that are common to all of us then we can do a better job. I 
will probably continue to talk with you folks and some of our 
federal agencies to see whether this is a fruitful idea.
    Trae, do you think that the state's goal of protecting 30 
percent of Hawaii's priority watersheds by 2030 is adequate and 
achievable? You noted that prior to 2002 there was not that 
much private sector, private landowner engagement in protecting 
our forested watersheds and now they are much more engaged. 
Maybe you can explain why this changed? Were there some tax 
incentives or something like that, and do you think that 30 by 
30 is an achievable goal and what do we have to do to get 
there?
    Mr. Menard. Okay.
    Well let me start with, you know, I'm at mainly on Kauai.
    Senator Hirono. Okay.
    Mr. Menard. There was not a lot of private landowner 
involvement. There has been, prior to that, there was quite a 
bit of private landowner involvement on East Maui where the 
first watershed partnership was formed.
    Senator Hirono. Yes.
    Mr. Menard. And so I think that was the model that we were 
following on Kauai.
    Senator Hirono. Yes. And there are now ten, right?
    Mr. Menard. Yeah.
    Senator Hirono. Those partnerships?
    Mr. Menard. Correct, yeah.
    But yeah I think when I first started as a Coordinator on 
Kauai and we started with the first watershed partnership 
meetings, and we got everybody in the same room together and 
people were just, kind of, looking at each other and going, 
wow, this is the first time we've ever really all sat down and 
had a conversation.
    And so I think from there, you know, I think that really 
developed into a base of trust so that when we were able to 
start moving forward on a plan and developing, you know, plans 
for fencing and for large scale invasive species control that 
would cross boundaries. I think that that level of trust needed 
to happen prior to that, you know. So now we're able to build 
fences across boundaries and including multiple landowners. I 
think before the partnership that probably wouldn't have 
happened.
    So that gets to the point of is it achievable? I believe it 
is because with these partnerships the communication is 
important because now when we do these large scale projects, 
you know, all the rights of entry, all the legal paperwork, all 
the, you know, differing processes that each landowner has and 
each agency has, you know, we can consolidate that into one 
meeting, essentially, and say, okay, this is the plan. How many 
of--you know, everybody is on board. There's a--it kind of 
greases the wheels administratively to get these things done. 
And so when we do get the money we're able to mobilize and get 
the money on the ground quickly and get the job done within the 
timeframe, you know, the allotted timeframe.
    I think that the reason I believe it's achievable is, like 
I said, we've achieved that in the last five years we've got 
that five percent. And so if we stay on track and maybe with a 
little bit of an acceleration, by 2030 I think we'll be really 
close to 30 percent. Yes, I do think it's achievable.
    Is it going to be easy? No. It's not going to be easy. And 
it's probably going to be increasingly more difficult as we 
get, as we approach that 30 percent goal.
    I think right now when we first started doing this we 
really kind of grabbed the low hanging fruits in terms of the 
lands that we were going to target, the most logistically 
simple, the politically simple, places that didn't have much 
conflict. And I think as we approach that 30 percent at the end 
we're going to need to really work hard to, you know, with 
communities and be able to really focus on achieving that. But 
I think, I do believe it is possible. Yes.
    Senator Hirono. I do realize that on the neighboring 
islands projects such as fencing, are really important. I 
wonder whether on Oahu, which is a much more urban situation, 
are we doing enough to pay attention to the call outs on 
Makaha, for example, in terms of protecting the watersheds on 
Oahu?
    Mr. Gonser. I'll let Trae speak more about the partnerships 
in general but for example, the Ko'olau watershed partnership, 
as you might imagine, stretches the entire range of the 
watershed. But the similar practices of removal of invasive 
flora and fauna and the reintroduction of native species in 
combination with the fencing, as I understand, is still the 
primary strategy and has proven successful across the state.
    Mr. Menard. Yes, I would say that yeah, it has improved 
quite a bit in the last few years. The watershed partnership in 
the Ko'olau has been able to put in some significantly sized 
fences and really achieve some pretty big goals.
    I think really when you look at the Ko'olau it's a 
challenging, it's a really challenging watershed partnership 
because when you look at, if you look at a landowner map 
there's, I don't know, a lot. There's probably more landowners 
per acre on the Ko'olaus than anywhere in Hawaii.
    And so that's always a challenge because when you're trying 
to do a big project with multiple thousands of acres that's 
even more landowners that you have to get and have an agreement 
with and being able to really, kind of, coordinate with. But 
nonetheless, they've been, they've really worked hard and 
they've been very successful so far at getting some areas 
fenced off in the central part of the Ko'olaus.
    The other challenge, I think, in the Ko'olaus is that it is 
an interface of very intensive urban development. So like, 
particularly in the Southern Ko'olaus where you folks work, I 
mean, I think that's even more critical to work in 
collaboration with the more urban watershed partnerships and be 
able to come up with strategies that span that interface. And I 
think that's going to be challenge but I think that's where 
it's exciting. I think it's a very exciting opportunity to do 
that.
    Dr. Gon. I'd like to add to that by pointing out that since 
85 percent of the population of the state is on the island of 
Oahu there is an opportunity to educate and bring awareness up 
for the majority of the state's population by engaging more 
focused effort in the protection of both Ko'olau and Wai'anae 
watersheds.
    The watershed history, as Dave Smith pointed out earlier, 
in 1903 the very first forest reserves in what would be the 
United States, is something that means that there's a long 
standing tradition of protection of our watersheds and 
recognition that those upland forests are essential, essential 
to our survival in the long run.
    It's easy to be disconnected from that system but I think 
everyone looks up into the mountains, sees that green watershed 
and it's easy to make that connection visually that that forest 
is essential to our life and to the water supply of this 
island, the most populated one.
    So, if we were going to put together a program to enhance 
both watershed development and protection on both the Wai'anae 
Mountains and Ko'olau, it's been done before. The arguments are 
there in place. We have a long history of very compelling 
statements about the importance of this. The Board of Water 
Supply would be right on it, of course. And I think that 
everyone in the state and on the island of Oahu is in a 
position to understand, grasp and appreciate how important 
those kinds of projects would be.
    Senator Hirono. Mr. Menard, you talked about all of the 
multiple landowners. How do we incentivize them to work with 
all of you to protect our watersheds? As I mentioned, are there 
tax incentives in place or what do we have to encourage them to 
come to the table?
    Mr. Menard. Well I think there are tax incentives in place 
for entering into conservation agreements, conservation 
easements and so forth and I also work for The Nature 
Conservancy and they've done a fair amount of those as well as 
the Mayan Trust and so forth. Those are, obviously, probably, 
the most direct incentive to, you know, to do conservation on 
their lands.
    You know, from the standpoint, like on Kauai, the 
landowners were incentivized by the very need for water.
    Senator Hirono. Okay.
    Mr. Menard. Some of our landowners were particularly 
concerned about the availability, the future availability of 
water, some of them had hydroelectric operations, others had 
agricultural operations that relied on the water from the 
forest.
    And so, when we first started talking about protecting the 
watershed they didn't really approach it from hey, this is 
going to be--we need some kind of a financial incentive to do 
this. They actually saw the need for it, and they actually 
realized it.
    You know one of the things like we talked a little bit 
about dams and so forth, when sediment runs down streams and 
fills up reservoirs or clogs up intakes, that's a big 
maintenance issue for them. And I think one of the landowners 
that we worked with on Kauai was particularly interested in 
eliminating a lot of the causes of that erosion.
    So, you know, there are incentives outside of just basic 
tax incentives and financial incentives, at least in the short 
term.
    Senator Hirono. I have a question for you, Dr. Gon. You and 
many folks in this room today know the land in Hawaii, of 
course, is very expensive and add to that the resources 
necessary to protect and conserve the land or in some cases, 
rehabilitate the land, and pretty soon you have a very large 
price tag.
    Can you speak to the importance of the Land and Water 
Conservation Fund, in helping landowners and land managers here 
in Hawaii to protect our forests and our watersheds?
    Dr. Gon. Certainly the idea of being able to protect the 
lands and waters, the forests and the ecosystems that we rely 
on with funds that are devoted to the protection of those 
resources, that's an extremely important incentive. It goes 
hand in hand with just the inherent value, cultural, water and 
other of the values that go with those forested ecosystems.
    So, we certainly, as we said, thank you for being a 
champion of the Land and Water Conservation Fund and I think 
that there are huge opportunities in Hawaii for the application 
of those funds.
    The nice thing is that we've got a limited acreage. We know 
where those important forested areas are. We know the 
connections between the land and water resources. And so we 
would be able to move quickly to apply those funds in Hawaii.
    Senator Hirono. You were talking about you thinking that 
there is an awareness in the state of the importance of our 
watersheds. Do you agree with that, that there is a general 
population awareness of the need to conserve water and that it 
is not a finite resource in Hawaii?
    Mr. Menard. I would say that it needs to be, that that 
needs to improve.
    Dr. Gon. There's always a need for improvement, but I think 
that the Board of Water Alliance and various other folks have 
made it pretty clear to the population at large of the need to 
conserve of the fact that we have limited water supplies and 
maybe, to a lesser extent, of where that water comes from and 
what it depends on in order to maintain a supply into the 
future.
    Senator Hirono. For example, you said that on Kauai the 
landowners there saw the need, so it is not as though they 
needed a financial incentive to step forward and do what needed 
to happen. Places like California, where they experience 
droughts and where it is very clear that water is a finite 
resource there, and they put in all kinds of programs that we 
have never had to do here such as not flushing toilets and all 
of that.
    I am just not sure whether there is that connection from a 
consumer standpoint, because don't we consume more water in the 
state per capita than any other state?
    Dr. Gon. That may be true.
    Senator Hirono. We are way up there in terms of 
consumption.
    Dr. Gon. We also, at least on this island, have huge water 
resources, and I think that that has allowed us to be 
complacent about these kinds of things.
    Senator Hirono. Yes.
    Dr. Gon. Therefore, the recent droughts on Maui and Hawaii, 
in particular, are beginning to draw attention to the fact that 
one size does not fit all across the archipelago, that there 
are places in which the water resources are in a different 
state and that there's much more need for conservation and for 
protection of the sources of that water.
    Oahu might be, you know, it rains pretty much every day and 
so people get a feeling of, they get complacent about that kind 
of thing. They look up into the mountain and they see that it's 
generally green and so you get the feel that our forests are in 
good shape. Whereas, those who know the conservation challenges 
of invasive weeds and the simplification of our forest 
watersheds and therefore a degradation of their ability to act 
as watershed. Those kinds of things are not so forefront in the 
minds of people, and I think that that needs to be enhanced.
    Senator Hirono. Yes, especially as the reality is that our 
aquifers are having to support a lot more people, a lot more 
tourists, and I think there is more we can do along those 
lines.
    Do you think that there is a particular awareness among the 
Native Hawaiian community as to the importance of water?
    Dr. Gon. I think that there is very easy to find very 
cogent arguments for the importance and the connection between 
forested watersheds and water supply in Hawaii in traditional 
knowledge.
    And so, that is certainly clear in the messages that were 
placed at the IUCN World Conservation Congress.
    And so, the impression was that people in Hawaii were 
cognizant of those kinds of things. But I think that although 
Hawaiian knowledge is going to be important in pointing out and 
making the connections between people and place and people and 
forests and the importance of native species and forests, in 
general. Not everyone is in the state of sufficient 
enlightenment along those lines. And there's always room for 
education and improvement in awareness.
    Senator Hirono. Before you began your testimony you did a 
chant. Could you just briefly tell us what----
    Dr. Gon. Yes. It talked about how Oahu is clad in Oku Oku 
and the mist that cleans the mountain and that this is a mist 
that provides water to the Ohi Alawaka which is a type of Ohia 
tree in legend with white flowers on one side and red flowers 
on the other. And it talks about how that mist comes into the 
mountains and how the upright cliffs allow the rains to come 
and provide water to us, to us all.
    It speaks to an integration of the nature of just natural 
phenomena in the mythology and in the stories and in just the 
awareness of natural process to bring water to the land and 
provide life to people. So, that's what that totally was about 
it.
    Senator Hirono. Thank you.
    Dr. Gon. I felt that it was an appropriate one for this 
particular session.
    Senator Hirono. Yes.
    Dr. Gon. So that's why I shared it.
    Senator Hirono. It was.
    Dr. Gon. And thank you for giving me the opportunity to 
point out some of the features of that oli and why it was 
shared.
    Senator Hirono. Thank you.
    The cultural aspects of how the people of Hawaii feel about 
our environment are very unique.
    Dr. Gon. And in fact, rapid Ohia death on Hawaii island, 
where Mary Monarch came it was an opportunity for disaster if 
the world came to Hawaii, moved around on the island there and 
then moved to other islands and spread that disease to other 
islands.
    Senator Hirono. Yes.
    Dr. Gon. But it was the Hawaiian community and the Mary 
Monarch organizers that took the leave and make sure to 
minimize the amount of Ohia Lehua that was going to be used in 
ornamentation.
    Senator Hirono. Yes.
    Dr. Gon. And also to make sure that there was an 
opportunity to dispose of any lay materials so that it stayed 
on that island rather than moving back to the other islands. I 
think that cultural awareness and the cultural practitioners 
were really important in staving off what could have been an 
archipelagic disaster.
    Senator Hirono. Yes, thank you for pointing that out.
    Matt, you bring to the table the unique perspective of 
planning and design. Do you feel that groups in Hawaii 
understand the importance of and are amenable to designing 
urban spaces to incorporate green infrastructure and decrease 
demand on Hawaii's fresh water resources? And can you provide 
some examples or your assessment of what future projects and 
developments of this perspective may be particularly important 
for?
    Mr. Gonser. Thank you for that question.
    I shared their sentiments about levels of awareness and 
education and always opportunities to increase that. I'm glad 
you asked this question because I was going to offer that 
though we're speaking about water volume or water quantity 
which is a very important discussion, I think we need a really 
full court press on water quality issues, particularly in our 
urban and community areas.
    The same ways that we can make that direct connection with 
the environmental services at green or public spaces or trees, 
as I alluded to before, serve as they're trying to work in the 
upper forest to really manage water where it falls. We need a 
similar approach in our community and town centers.
    Either we need to do it voluntarily or in the next several 
rounds of our NPPS permits we'll be required to. So it's really 
the opportunity to get ahead of the game, to manage it onsite.
    I alluded to the public right-of-way because I really think 
it's a public right-of-way meaning either building-to-building 
or sidewalk-to-sidewalk. It's really our streets that the 
conspicuous relationship that we all have with this, which is 
our public space, though primarily for automobiles. If we can 
reintroduce nature and think about urban street trees through 
our Kaulunani urban and community forestry program and other 
programs at the county levels, I think that's a huge 
opportunity to both mitigate heat island as well as manage 
water onsite and will just become more and more important as 
our rain conditions evolve and change.
    Research coming out of an arboretum in Illinois recently 
found that of all the water inputs into a bioswale that had 
trees planted, so a bioswale meaning a slightly depressed area 
for water to infiltrate, filter somewhat, perhaps overflow into 
another area from the irrigation and rainfall these trees in 
bioswales were managing 50 to 75 percent of that water. So it 
was evaporating?
    So just the ability of these, I would call them, urban 
forests to help us both green Hawaii's communities and manage 
rainfall onsite, I think, would become integral as we move 
forward.
    Senator Hirono. Urban forests, that is an interesting 
thought. Do we have any such thing on Oahu?
    Mr. Gonser. We do.
    Senator Hirono. Where?
    Mr. Gonser. Actually Oahu has some of the best information 
of its urban canopy. There's a new urban kind of via assessment 
going out in the next couple of years and through Administrator 
Smith's--as I mentioned, the Urban and Community Forestry 
program which receives Forest Service funding from the USDA and 
is managed through the DLNR. They've been the ones managing the 
grant moneys to then do these assessments.
    The sad story is in this next roll out I believe we'll have 
seen a five-percent decrease over five years of our urban 
canopy. So, as I mentioned, these are long-term investments. 
They hopefully have long and healthy lives. So we need to start 
planting them now for the future.
    Senator Hirono. When you talk about urban forests, do you 
mean is it a matter of planting trees, maybe particular kinds 
of trees in our urban environment?
    Mr. Gonser. I would say the science is out. We still need 
more information on which species could provide those benefits 
I alluded to of urban heat mitigation and the storm water 
management.
    But when I say urban forestry, I really mean everything 
outside of our state conservation lands. It would be that 
expansive from our densely urban to our suburban and even to 
our rural town centers.
    Senator Hirono. So, for example, if we had pocket parks 
throughout our community then it would matter what kind of 
trees are planted in those parks because I don't know that 
there was much consideration given to those aspects of helping 
our water issues.
    Mr. Gonser. Yeah, and again, I'm just going to make a plug 
for the streets as they're essentially rivers or conduits for 
rainwater to flow.
    Senator Hirono. Yes.
    Mr. Gonser. Expediently to the ocean. So if there are ways 
to repurpose.
    Senator Hirono. Yes.
    Mr. Gonser. Again, that which is our public space, to 
provide these other sustainability and community benefits that 
I believe are consistent with the values of a lot of the 
residents of the state. I think that's a very important 
opportunity to re-envision how we can be a green community and 
a model moving forward.
    Senator Hirono. Are we doing well in terms of the kind of 
considerations in our landscape that you just mentioned?
    Mr. Gonser. In short, we can do better but we do have 
complete streets policies which is a little bit off topic but 
it's about reallocating space for multiple modes of moving 
about our communities. And there are segments in there that 
include considerations for green infrastructure and urban 
forests.
    Senator Hirono. Thank you. Thank you very much. I want to 
thank our three panels and, of course, the Governor and our 
Senator and Representative and our people who came from the 
mainland. Thank you very much.
    I hope that maybe you can spend at least another day here 
or so to see what our environment is like and what our culture 
is like because I very much welcome the opportunity for Members 
of the Administration to come to Hawaii and to see that Hawaii 
is much more than a tourism and military place, important as 
those activities are to the State of Hawaii.
    Please, feel free to work with my staff on any places that 
you could go to experience some of the aspects of Hawaii that 
will enable you to become advocates for us as we go forward.
    For this last panel, thank you very much for all that you 
do.
    There will be an opportunity for people who want to submit 
questions, let me see, there are magic words that I am supposed 
to say. [Laughter.]
    In terms of the record being open.
    The official record for this Committee hearing will be open 
for two weeks and after this hearing should anyone want to 
submit any written testimony, you can do so by sending your 
testimony to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbafbea8afb2b6b4b5a29bb3b2a9b4b5b4f5a8beb5baafbef5bcb4adf5">[email&#160;protected]</a> For Senators and 
their staff, Members of the Committee or not, questions for the 
record are due by the close of business tomorrow.
    Thank you very much. I know that we will be working with 
you as we go forward. This is a very important topic. While the 
Energy Committee deals with what would seem to be energy 
issues, I really wanted to bring focus on the importance of our 
forested watersheds and that it is a part of the Energy 
Committee's jurisdiction.
    Mahalo nui loa to each of you.
    This hearing is adjourned.
    [Whereupon, at 12 p.m. the hearing was adjourned.]

                                   <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
